OIG Investigative Reports Press Release Fresno, CA., 09/16/2013 - Sentencings in Federal Student Financial Aid Fraud Schemes
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of CALIFORNIA
NEWS
United States Attorney Benjamin B. Wagner
Eastern District of California
FOR IMMEDIATE RELEASE
Monday, September 16, 2013
www.usdoj.gov/usao/cae
Docket #: 1:12-cr-31 AWI and 1:12-cr-301 AWI
CONTACT: LAUREN HORWOOD
PHONE: 916-554-2706
usacae.edcapress@usdoj.gov
Sentencings in Federal Student Financial Aid Fraud Schemes
FRESNO, Calif. — Yvette Maura August, 53, of Atwater, and Kim Rene Gray, 51, of
Los Banos, were sentenced today for student aid fraud, United States Attorney Benjamin B.
Wagner announced. U.S. District Judge Anthony W. Ishii sentenced August to 25 months in
prison and sentenced Gray to 28 months in prison
In a separate case, Willie Sherman Prude, 53, and Deana Shirelle Nolen, 47, of
Boron, were each sentenced to four years’ probation for their roles in another student aid
fraud scheme.
These cases are the result of the U.S. Department of Education Office of Inspector
General’s criminal investigations aimed at shutting down federal student aid “fraud rings”
that seek to exploit federal student aid programs. The U.S. Postal Inspection Service
assisted in the investigation.
“I want to commend OIG Special Agents and our partners in law enforcement whose
actions brought about today’s action,” said Natalie Forbort, Special Agent in Charge of the
U.S. Department of Education Office of Inspector General’s Western Regional Office. “These
four people didn’t think they would get caught. They were wrong."
According to court documents, August and Gray participated in a conspiracy with
others to defraud the United States Department of Education of student aid grants and
loans. They submitted false financial aid applications to Axia College at the University of
Phoenix and Capella University on behalf of students who did not intend to attend either
school. In some cases the defendants used stolen or wrongfully obtained personal
identifying information for persons who did not know their identities would be used to apply
for college financial aid. As a result of the conspiracy, more than $200,000 in grants and
loans were disbursed, resulting in approximately $110,000 being paid to the defendants.
On July 11, 2013, a jury found co-defendant Keith Lazell Woolridge Sr., 41, of
Fresno, guilty of conspiracy to commit mail fraud, mail fraud, and aggravated identity theft.
The guilty verdict was returned by a federal court jury in Fresno after a three day jury trial
before United States District Judge Anthony W. Ishii. The morning of trial, Piersha
Woolridge, 34, of Atwater, pleaded guilty to conspiracy to commit mail fraud, mail fraud,
and aggravated identity theft. Piersha Woolridge is scheduled to be sentenced on
September 23, 2013, and Keith Woolridge is scheduled to be sentenced October 31, 2013.
Assistant United States Attorneys Mark J. McKeon and Grant B. Rabenn are prosecuting the
case.
In the separate case, Prude and Nolen admitted that from April 2008 to March 2012
they conspired with other co-defendants to obtain federal student aid funds to which they
were not entitled. According to their guilty pleas, Prude fraudulently obtained student aid
funds from Barstow Community College and Nolen fraudulently obtained student aid funds
Cerro Coso Community College in Kern County and from Barstow Community College.
Assistant United States Attorney Kirk B. Sherriff is prosecuting the case.
####
Top
Printable view
Last Modified: 09/17/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov